   DEPARTMENT OF HOMELAND SECURITY

            Office of Inspector General


             Improved Security Required for DHS
                         Networks
                        (Redacted)




  Notice: The Department of Homeland Security, Office of Inspector General, has redacted this
  report for public release. The redactions are identified as (b)(2), comparable to 5 U.S.C. §
  552(b)(2). A review under the Freedom of Information Act will be conducted upon request.



                    Office of Information Technology

OIG-06-05                                                           November 12005
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by our office as
part of our DHS oversight responsibility to promote economy, effectiveness, and efficiency within
the department.

This report assesses the strengths and weaknesses of controls over network security at DHS. It is
based on interviews with DHS officials, direct observations, technical scans, and a review of
applicable documents.

The recommendation herein has been developed to the best knowledge available to our office, and
has been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to
all of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Table of Contents/Abbreviations

  Executive Summary ...................................................................................................................1

  Background ................................................................................................ 2

  Results of Audit........................................................................................... 4

       DHS Needs to Implement A Network Security Testing Program .......................................4
       Conclusion and Recommendation .......................................................................................8
       Management Comments and OIG Analysis ........................................................................9


Appendices
  Appendix A:           Purpose, Scope, and Methodology .................................................................10
  Appendix B:           Management Response To Draft Report ........................................................11
  Appendix C:           Vulnerabilities Detected by Component .......................................................13
  Appendix D:           NIST’s Recommended Testing Schedule ......................................................14
  Appendix E:           Major Contributors to this Report ..................................................................15
  Appendix F:           Report Distribution.........................................................................................16

Abbreviations
  CBP             U.S. Customs and Border Protection
  CIO             Chief Information Officer
  DHS             Department of Homeland Security
  IDS             Intrusion Detection System
  LAN             Local Area Network
  NIST            National Institute of Standards and Technology
  NOC             Network Operations Center
  SOC             Security Operations Center
  TSA             Transportation Security Administration
  VAT             Vulnerability Assessment Team




                                         Improved Security Required for DHS Networks
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary

                We audited the Department of Homeland Security (DHS) and its
                organizational components’ security program to determine the
                effectiveness of controls implemented on selected wired-based sensitive
                but unclassified networks. This audit included a review of applicable
                DHS and component security policies, procedures, and other appropriate
                documentation. In addition, we performed vulnerability assessments to
                evaluate the effectiveness of controls implemented on selected
                organizational components’ network devices.

                Our objective was to determine whether DHS and its organizational
                components have implemented adequate controls to protect its networks.
                We interviewed DHS personnel, reviewed policies and procedures, and
                conducted vulnerability assessments for select network devices at four
                DHS organizational components: U.S. Customs and Border Protection
                (CBP), United States Coast Guard (Coast Guard), Transportation Security
                Administration (TSA), and, United States Secret Service (Secret Service).
                Our results were summarized in separate audit reports with findings and
                recommendations issued to each component.

                The four components reviewed are taking actions to secure their networks.
                Some vulnerability assessments are being performed on all or parts of the
                components’ network devices (for example servers and workstations).
                CBP and the Secret Service have each performed a penetration test on
                their networks in previous years. TSA and the Secret Service are
                migrating to a more secure operating environment which has less
                vulnerabilities. Three of the components - CBP, TSA, and Secret Service
                - have implemented a centralized patch management process, which helps
                to ensure that all devices across the network are properly patched.

                While progress has been made and efforts by the organizational
                components continue to improve security, specific areas need attention.
                The DHS Chief Information Officer (CIO) has not developed a
                department-wide testing program to ensure that the necessary controls
                over all of its networks are adequate and effective. In addition, the
                components have not completely implemented DHS policies and
                procedures or processes that address security testing, monitoring network

                       Improved Security Required for DHS Networks

                                         Page 1
             activities with audit trails, configuration and patch management, and
             contingency planning.

             Security controls must be improved in order for DHS to provide adequate
             and effective security over its networks. Our vulnerability assessments at
             the components identified security concerns resulting from inadequate
             password controls, missing critical patches, vulnerable network devices,
             and weaknesses in configuration management. These security concerns
             provide increased potential for unauthorized access to DHS resources and
             data.

             We made a recommendation to assist DHS more effectively secure its
             networks. Both effective network management and security controls are
             needed in order to protect the confidentiality, integrity, and availability of
             sensitive information stored and processed on DHS information systems.

             In response to our draft report, DHS agreed and has already taken steps to
             implement the recommendation. DHS’ response is summarized and
             evaluated in the body of this report and included, in its entirety, as
             Appendix B.

Background
             There are many advantages associated with using computer networks to
             share information, not the least of which for government agencies is to
             dramatically boost productivity, efficiency, and competitiveness.
             However, the open nature of networks makes it important that government
             agencies secure their networks and protect them from vulnerabilities. As a
             result, network security is no longer something that resides primarily at the
             perimeter of a network: it must be evaluated from all points of entry into
             the network such as desktop and laptop computers, remote access,
             connections to third-party networks, and wireless access points. Effective
             network security is needed to protect the confidentiality, integrity, and
             availability of sensitive information. The primary reason to develop
             controls and test the security of an operational network is to identify and
             remedy potential vulnerabilities.

             Networks are a series of interconnected devices which allow individual
             users and organizations to share information. A network which comprises
             a relatively small geographical area is known as a local area network
             (LAN). A network which connects various LANs dispersed over a wide
             geographical area is called a wide area network. Network devices include
             servers, workstations, and printers (used to create, process, maintain, and

                    Improved Security Required for DHS Networks

                                      Page 2
                           view information); routers 1 and switches 2 (used to communicate
                           information); firewalls 3 and encryption devices 4 (used to protect
                           information being transported); and intrusion detection systems (IDS) 5
                           (used to monitor and analyze network events). Figure 1 is an illustration
                           of a typical network.




                           Since sensitive data is stored on and transmitted along wide area networks,
                           effectively securing networks is essential to protect sensitive data from
                           unauthorized access, manipulation, or misuse. Improperly configured
                           network services expose a network to internal or external threats, such as
                           hackers, cyber-terrorist groups, as well as denial of service attacks.
                           Further, as networks provide the entry point for access to electronic
                           information assets, failure to secure them increases the risk of
                           unauthorized use of sensitive data.



1
  Routers are devices which join multiple networks. Configuration information maintained in the “routing table”
allows routers to filter traffic, either incoming or outgoing, based on the Internet Protocol addresses of senders and
receivers.
2
  Switches are devices which join multiple networks at a low-level network protocol layer. Switches inspect data
packets as they are received, determine the source and destination device of that packet, and forward that packet
appropriately.
3
  Firewalls protect a network from unauthorized access. Firewalls may be hardware devices, software programs, or
a combination of the two. A firewall typically guards an internal network against unauthorized access from the
outside; however; firewalls may also be configured to limit access to outside by internal users.
4
  Encryption devices perform the task of converting plain text into an unreadable form and vice versa, in order to
create secure communications.
5
  IDS is a security countermeasure that monitors the network for signs of intruders.

                                    Improved Security Required for DHS Networks

                                                        Page 3
               DHS Sensitive Systems Policy Publication 4300A (DHS Policy) provides
               direction to DHS’ components regarding the management and protection
               of sensitive systems. In addition, the policy outlines management,
               operational, and technical controls necessary to ensure confidentiality,
               integrity, availability, and authenticity within the DHS information
               technology infrastructure and operations. Additionally, the department
               developed the DHS Sensitive Systems Handbook (DHS Handbook) to
               provide components with specific procedures and techniques for
               implementing the requirements of the policy.

               This audit was conducted from December 2004 through March 2005 at
               four DHS components: CBP, TSA, the Coast Guard, and the Secret
               Service. See Appendix A for our purpose, scope, and methodology.

Results of Audit

  DHS Needs to Implement A Network Security Testing Program
               DHS requires a comprehensive department-wide testing program to
               evaluate and ensure the effectiveness of security measures and controls
               implemented on its networks. A testing program should be established to
               ensure that vulnerability assessments are an on-going, effective process
               that provides assessment coverage for the entire DHS network.

               DHS issued policy and procedures to implement a department-wide
               vulnerability assessment program as part of the DHS Handbook in July
               2004 (Attachment O – Vulnerability Assessment Program). Further, DHS
               would establish a Vulnerability Assessment Team (VAT) to provide
               vulnerability assessment services to the department’s organizational
               components. As described in the DHS Handbook, the program’s goal was
               to provide 100% vulnerability assessment coverage for all DHS systems
               (including networks) annually. Vulnerability assessments would be a
               four-phase process: reconnaissance, scanning, penetration testing, and
               reporting. The program would rely on DHS components to conduct their
               own assessments and report results to the DHS VAT. Where the
               capability to perform vulnerability assessments did not exist, the DHS
               VAT would perform these assessments for the components. The DHS
               VAT would conduct an ongoing, external assessment program for all
               peripheral connections to DHS networks. Annually, the DHS VAT would
               provide at least one independent vulnerability assessment at each DHS
               component. In addition, as part of the assessment program, periodic
               penetration testing would be required. The DHS Computer Security


                     Improved Security Required for DHS Networks

                                       Page 4
Incident Response Center (CSIRC) would conduct operational oversight
for the DHS VAT under the guidance of the DHS CISO.

However, as of August 2005, the department’s Vulnerability Assessment
Program, as established in the Attachment, has not been implemented.
Furthermore, the DHS VAT has only performed a limited number of
vulnerability assessments.

To determine whether DHS and its organizational components have
implemented adequate controls to protect its networks, we performed
testing at four of the department’s organizational components (CBP, Coast
Guard, Secret Service, and TSA). The four components covered in this
review had not implemented all of the controls needed to ensure that their
networks are secure. For example, the components have not implemented
the necessary policies and procedures to ensure the security of their
networks. In addition, we identified vulnerabilities on network devices at
all components tested. The vulnerabilities identified support the fact that
DHS should implement a department-wide program to either ensure
compliance with established policies and procedures or to independently
identify security exposures that jeopardize the security of its networks.
While each of the component networks reviewed had varying degrees of
network security appropriately established, the following were areas
common to each which presented security issues requiring attention.

Comprehensive Network Security Assessments Are Required

The components have not developed policies or procedures to establish
and implement their own comprehensive network-testing program. Each
of the four components has implemented procedures to perform some
measure of vulnerability assessments on all or parts of their networks.
However, the component’s programs are deficient in the following areas:
       Coast Guard and TSA have not performed other forms of security
       testing, such as penetration testing, and password analysis.
       Penetration testing was performed at CBP in 2004 and at the
       Secret Service in 2003; however, both components have yet to
       decide whether to perform penetration testing in 2005.
       CBP is the only component reviewed that performed periodic
       password analysis.

The Federal Information Security Management Act of 2002 requires that
federal agencies perform periodic testing to evaluate the effectiveness of
security controls. Also, the National Institute of Standards and

       Improved Security Required for DHS Networks

                         Page 5
                            Technology (NIST) Special Publication 800-42 (Guideline for Network
                            Security Testing) recommends organizations establish a testing program
                            and conduct routine security testing to verify that systems have been
                            configured correctly with the appropriate security resources and in
                            agreement with established policies. See Appendix D for NIST’s
                            recommended routine testing schedule.

                            Established Security Policies and Procedures Require Implementation

                            DHS security policies and procedures, as described in the DHS Policy and
                            Handbook, have yet to be implemented by the organizational components.
                            The major elements not yet addressed are audit trail review and
                            maintenance, minimum password length and complexity, and contingency
                            planning.

                            None of the components reviewed have implemented an adequate
                            procedure for recording, reviewing, and maintaining audit trail
                            information for their networks and network devices. Audit trails can track
                            the identity of each user attempting to access the network device, the time
                            and date of access, and time of log off. In addition, audit trails can capture
                            all activities performed during a session and can specifically identify those
                            activities that have the potential to modify, bypass, or negate the system’s
                            security safeguards.

                            DHS has developed a set of guidelines in its DHS Handbook to implement
                            passwords that restrict access to authorized users only. However, the
                            password policies at three of four components (CBP, Coast Guard, and
                            TSA) did not comply with DHS’ requirements for strong passwords.
                            There were also instances of components allowing the use of shared user
                            accounts and passwords.

                            Contingency plans for the networks at three of the four components (Coast
                            Guard, Secret Service, and TSA) have either not been developed or tested.
                            DHS policy and the Office of Management and Budget require that
                            contingency plans be developed and the plans tested periodically. In
                            addition, the DHS Handbook specifically requires the testing of
                            contingency plans at a minimum annually.

                            Network Devices Require Strengthened Security Configurations

                            We performed vulnerability assessments on a sample of network devices
                            and identified vulnerabilities at all four components reviewed. 6 We noted

6
    See Appendix C for the number of high and medium risk vulnerabilities identified by component.

                                    Improved Security Required for DHS Networks

                                                       Page 6
                          that the Secret Service and TSA are in the process of migrating to a more
                          secure operating environment --- ----- ------------------------------ and found
                          fewer vulnerabilities on devices at these components.

                          Those areas where security improvements are most needed include
                          configuration management 7, router configurations, patch management 8,
                          and user account and password management. Without procedures in place
                          to ensure that all material vulnerabilities are identified and reviewed,
                          management cannot ensure that its networks - and the data that resides on
                          them - are secure.

                          In addition, at all four components, many of the --------------------------
                          --- ------------------------------------------ -------------------------------------------
                          --------- ------------------- - ------------ ----------------------------------------
                          ---------------- --------- --------------- - -------------- ---------------------------
                          --------------------------------------------------- --------------------------------
                          ------------------------------------------

                          We identified vulnerabilities related to configuration management at all
                          four components reviewed. Improperly configured devices could make a
                          network vulnerable to internal or external threats, such as denial of service
                          attacks. Since networks provide the entry point for access to data, failure
                          to secure them increases the risk of unauthorized access and use of
                          sensitive data.

                          We noted vulnerabilities due to missing security patches at all four
                          components even though three of the four components (CBP, TSA, and
                          Secret Service) had established a centralized patch management process.
                          Without an effective documented patch management process, DHS cannot
                          ensure that all security vulnerabilities have been mitigated before
                          malicious users exploit these vulnerabilities.

                          Our vulnerability scans disclosed weak user account and password
                          administration, ----------------------- ----------------------- -- -- - ---------------
                          ---------------------------------- , at three of the four components (CBP, Coast
                          Guard, and Secret Service). These weaknesses are an indication that user
                          accounts and passwords may not be effective to control access to DHS
                          sensitive data.



7
  Configuration management is the control and documentation of the initial settings and changes made to a system’s
hardware and software.
8
  Patch management, which is a component of configuration management, is a critical process used to mitigate
security vulnerabilities that have been identified.

                                  Improved Security Required for DHS Networks

                                                      Page 7
             Vulnerabilities in router configurations exist at all four components
             reviewed. Properly configured routers permit only authorized network
             service requests and deny unauthorized ones. There is little assurance that
             components can prevent unauthorized users from connecting to its
             networks since all routers are not securely configured. In addition,
             components are unable to ensure that only legitimate users access their
             network resources.

Conclusion
             Security vulnerabilities may continue to exist if DHS does not implement
             a comprehensive testing program to identify those exposures that place
             information systems at risk. The organizational components and the DHS
             CIO share the responsibility for securing all DHS networks. While the
             DHS CIO is responsible for the oversight and management of the DHS
             security program, the components, using DHS IT security policies and
             procedures, are required to develop their own IT security program. The
             components’ security program should include those policies and
             procedures, including network testing, necessary to effectively secure their
             information systems. Since DHS’ policy and procedures for establishing a
             network security testing program have not been implemented; without
             specific DHS policy, the components lack sufficient guidance to
             implement a comprehensive security testing program.

             Without performing routine security testing, DHS cannot ensure that the
             security controls implemented by the components are working as intended
             or that the sensitive data processed and stored on its networks is protected
             from unauthorized access and potential misuse. Security testing also
             reduces the likelihood of systems being compromised by identifying
             counter measures for the vulnerabilities discovered.

             Recommendation

             We recommend that the DHS CIO:

                     Implement fully its Vulnerability Assessment Program, or another
                     process, to ensure that all DHS networks are periodically assessed
                     for vulnerabilities, which would include vulnerability assessments
                     and penetration testing.




                    Improved Security Required for DHS Networks

                                      Page 8
Management Comments and OIG Analysis

DHS agreed with our recommendation. DHS has established an
infrastructure enterprise security program, within the Office of
Infrastructure Operations, that is responsible for implementing operational
security management for all DHS’ computer and network resources. In
addition, DHS plans to consolidate all legacy networks into a single DHS
core network. This consolidation includes the creation of a DHS Network
Operations Center/Security Operations Center (NOC/SOC) to conduct
periodic vulnerability assessments and penetration testing. Furthermore,
beginning in FY 2006, components will be required to establish
component level NOC/SOCs that comply with DHS policy. All
component NOC/SOCs will have complementary vulnerability
management and assessment capabilities and will be required to report to
the DHS NOC/SOC for department-wide analysis and assessments.

We agree that the steps that DHS has taken, and plans to take, satisfy this
recommendation.




       Improved Security Required for DHS Networks

                         Page 9
              Appendix A
              Purpose, Scope, and Methodology




Purpose, Scope, and Methodology
              The objective of this audit was to determine whether DHS and its
              components had implemented adequate controls for protecting its
              networks. Specifically, we determined whether: (1) DHS and its
              components had developed adequate policies and procedures for standard
              configurations, patch and vulnerability management processes, reviewing
              audit trails, performing periodic network testing, identification and
              authentication mechanisms, and deploying anti-virus software; (2) the
              network administration processes were adequate; (3) adequate security
              controls were implemented on firewalls, IDS, encryption devices, routers,
              switches, servers, network printers, and workstations; and, (4) adequate
              physical security controls had been established to restrict access to
              network resources.

              To accomplish our audit, we conducted fieldwork at the following
              components:
                     Transportation Security Administration
                     U.S. Customs and Border Protection
                     United States Coast Guard
                     United States Secret Service

              We interviewed personnel at the Office of the Chief Information Officer
              and the components. In addition, we reviewed and evaluated DHS and
              component security policies, procedures, and other appropriate
              documentation. During the audit, we used two software tools (Internet
              Security Systems’ Internet Scanner and Kane Security Analyst) to detect
              and analyze vulnerabilities on servers, workstations, switches, and
              network printers and another tool (Cisco Security Analyzer) to analyze
              vulnerabilities on routers. Upon completion of the assessments, we
              provided the components the technical reports detailing the specific
              vulnerabilities detected on their network devices and the actions needed
              for remediation.

              We conducted our audit between December 2004 and March 2005 under
              the authority of the Inspector General Act of 1978, as amended, and
              according to generally accepted government auditing standards. Major
              OIG contributors to the audit are identified in Appendix E.

              The principal OIG points of contact for the audit are Frank Deffer,
              Assistant Inspector General, Office of Information Technology at
              (202) 254-4100 and Edward G. Coleman, Director, Information Security
              Audits Division at (202) 254-5444.
                     Improved Security Required for DHS Networks

                                       Page 10
Appendix B
Management Response To Draft Report




       Improved Security Required for DHS Networks

                         Page 11
Appendix B
Management Response To Draft Report




       Improved Security Required for DHS Networks

                         Page 12
                                           Appendix C
                                           Vulnerabilities Detected by Component




                                                   Vulnerabilities Detected By Component


                                     700
                                     600
           Devices/Vulnerabilities



                                     500
                                     400
                 Number of




                                     300                                                            Devices
                                     200                                                            Tested
                                     100
                                                                                                    High
                                       0                                                            Vulnerability
                                            CBP           TSA         Coast        Secret
                                                                      Guard        Service          Medium
                                                           Component                                Vulnerability




      Component                        Devices Tested 1        High Vulnerability             Medium Vulnerability

          CBP                                368                       456                            450

          TSA                                117                        24                            11

    Secret Service                            73                        96                            112

     Coast Guard                             412                       145                            601

         Total                               970                       721                           1174

1
    Devices tested include servers, workstations, switches, and network printers.




                                                    Improved Security Required for DHS Networks

                                                                      Page 13
                     Appendix D
                     NIST’s Recommended Testing Schedule




                   Frequency For           Frequency For
  Test Type                                                                       Benefit
                  Critical Systems       Non-Critical Systems
                                                                      Enumerates the network structure
                                                                      and determines the set of active
                                                                      hosts and associated software
Network            Continuously to                                    Identifies unauthorized hosts
                                             Semi-Annually
Scanning             Quarterly                                        connected to a network
                                                                      Identifies open ports
                                                                      Identifies unauthorized services
                                                                      Enumerates the network structure
                                                                      and determines the set of active
                                                                      hosts and associated software
                     Quarterly or                                     Identifies a target set of computers
                  bi-monthly (more                                    to focus vulnerability analysis
Vulnerability   often for certain high                                Identifies potential vulnerabilities on
                                             Semi-Annually
Scanning        risk systems), when                                   the target set
                   the vulnerability                                  Validates that operating systems
                database is updated                                   and major applications are up-to-
                                                                      date with security patches and
                                                                      software versions
                                                                      Determines how vulnerable an
                                                                      organization's network is to
                                                                      penetration and the level of
                                                                      damage that can be incurred
Penetration                                                           Tests IT staff's response to
                      Annually                 Annually               perceived security incidents as well
Testing
                                                                      as their knowledge and
                                                                      implementation of the
                                                                      organization's security policy and
                                                                      system’s security requirements
                                                                      Verifies that the policy is effective in
                Continuously to same                                  producing passwords that are more
                                          Same frequency as           or less difficult to break
Password           frequency as
                                          password expiration         Verifies that users select
Analysis        password expiration
                                                policy                passwords that are compliant with
                       policy
                                                                      the organization's security policy

                   Daily for critical
                                                                      Validates that the system is
Log Review         systems (e.g.,               Weekly
                                                                      operating according to policies
                      firewalls)
                                                                      Detects and deletes viruses before
Virus                                                                 successful installation on the
                Weekly or as required    Weekly or as required
Detection                                                             system
                                                                      Detects unauthorized wireless
                   Continuously to                                    access points and prevents
War Driving                                  Semi-annually
                      weekly                                          unauthorized access to a protected
                                                                      network




                               Improved Security Required for DHS Networks

                                                 Page 14
Appendix E
Major Contributors to this Report




Information Security Audits Division

Edward G. Coleman, Director
Jeff Arman, Audit Manager
Chiu-Tong Tsang, Audit Team Leader
Benita Holliman, Auditor
Evan Portelos, Associate
Anthony Nicholson, Referencer

Advanced Technology Division

Jim Lantzy, Director
Chris Hablas, Senior Security Engineer




        Improved Security Required for DHS Networks

                           Page 15
Appendix F
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Executive Secretary
General Counsel
Management, Under Secretary
Chief Security Officer
Chief Information Officer
Chief Information Security Officer
Public Affairs
Legislative Affairs
Director, Departmental GAO/OIG Liaison Office
Director, Compliance and Oversight Program
Chief Information Officer Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




        Improved Security Required for DHS Networks

                          Page 16
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
